No. 19-197
In the

Supreme Court of the United States
__________________
LAVERN BEHM,
v.

Petitioner,

MONTANA-DAKOTA UTILITIES CO.,
Respondent.
__________________
On Petition for Writ of Certiorari to the
Supreme Court of North Dakota

__________________

BRIEF FOR THE NORTHWEST LEGAL
FOUNDATION AS AMICUS CURIAE
IN SUPPORT OF PETITIONER
__________________
Richard B. Sanders
Counsel of Record
Goodstein Law Group, PLLC
501 South “G” Street
Tacoma, WA 98405
(253) 779-4000
rsanders@goodsteinlaw.com
Counsel for Amicus Curiae
October 1, 2019
Becker Gallagher · Cincinnati, OH · Washington, D.C. · 800.890.5001

i
TABLE OF CONTENTS
TABLE OF AUTHORITIES. . . . . . . . . . . . . . . . . . . . ii
INTEREST OF AMICI CURIAE . . . . . . . . . . . . . . . . 1
SUMMARY OF ARGUMENT . . . . . . . . . . . . . . . . . . 3
ARGUMENT . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3
I. Property Rights are a Fundamental Right
Retained by Individuals . . . . . . . . . . . . . . . . . . . . 3
II. Any Limitation or Condition by the Government
on a Person’s Property Rights Should Engender
Strict Scrutiny Analysis . . . . . . . . . . . . . . . . . . . . 8
CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 15

ii
TABLE OF AUTHORITIES
CASES
City of Seattle v. McCoy,
101 Wash.App. 815, 4 P.3d 159, Wash.App.
Div. 1, July 17, 2000 . . . . . . . . . . . . . . . . . . . . . . . 1
Cobb v. Snohomish County,
64 Wash.App. 451, 829 P.2d 169,
Wash.App. Div. 1 (1991) . . . . . . . . . . . . . . . . . . . . 2
Davenport v. Washington Ed. Assn.,
551 U.S. 177 (2007). . . . . . . . . . . . . . . . . . . . . . . . 2
Gowan v. Ward County Commission,
2009 ND 72, 764 N.W.2d 425,
cert. denied 558 U.S. 879 (Oct. 5, 2009) . . . . . . . . 1
Hale v. State of North Dakota,
2012 ND 148, 818 N.W.2d 684,
cert. denied 133 S.Ct. 847 (Jan. 7, 2013) . . . . . . . 1
Kelo v. New London,
545 U.S. 469 (2005). . . . . . . . . . . . . . . 3, 12, 13, 14
Lynch v. Household Finance Corp.,
405 U.S. 538 (1972). . . . . . . . . . . . . . . . . . . . . . . . 6
Marvin M. Brandt Revocable Trust v. United States,
No. 12-1173, 572 U. S. ___ (2014). . . . . . . . . . . . . 1
Postema v. Snohomish County,
83 Wash.App. 574, 586-587, 922 P.2d 176,
Wash.App. Div. 1, September 09, 1996 . . . . . . . . 2
R/L Associates, Inc. v. City of Seattle,
113 Wash.2d 402, 780 P.2d 838 (1989) . . . . . . . . 2

iii
Richmond v. Thompson,
130 Wash.2d 368, 922 P.2d 1343, Wash.,
September 26, 1996 . . . . . . . . . . . . . . . . . . . . . . . 2
State ex rel. Public Disclosure Comm. v. Wea,
130 P.3d 352 (Wash. 2006) . . . . . . . . . . . . . . . . . . 2
U.S. v. Windsor,
570 U.S. 744 (2013). . . . . . . . . . . . . . . . . . . . . . . . 7
CONSTITUTIONS
U.S. Const. art. 1, § 8 . . . . . . . . . . . . . . . . . . . . . . . . . 8
U.S. Const. amend. V . . . . . . . . . . . . . . . . . . . 8, 11, 13
U.S. Const. amend. XIV . . . . . . . . . . . . . . . . . . . . . . . 8
Wash. Const., art. 11 § 16 . . . . . . . . . . . . . . . . . . . . . 2
OTHER AUTHORITY
James W. Ely, Jr., THE GUARDIAN OF EVERY OTHER
RIGHT – A CONSTITUTIONAL HISTORY OF
PROPERTY RIGHTS, 2d ed., Oxford University
Press (1998). . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 6

1
INTEREST OF AMICI CURIAE
Pursuant to Supreme Court Rule 37.2(a), the
Northwest Legal Foundation submits this brief amicus
curiae in support of Petitioner Lavern Behm.1
The Northwest Legal Foundation was established in
1988 for the purpose of stopping government abuse of
citizen’s rights, specifically focusing on property
rights.2 The Northwest Legal Foundation believes that
1

All parties were given at least 10 days notice and have consented
in writing to the filing of this brief. No counsel for any party
authored this brief in whole or in part and no person or entity
made a monetary contribution specifically for the preparation or
submission of this brief. The brief was authored by the Northwest
Legal Foundation; we note that Attorney Boughey was consulted
and provided editorial assistance. It should be further noted that
Justice Sanders and Mr. Hale “cut and pasted” from a prior brief
submitted by the Northwest Legal Foundation written by Mr.
Boughey in 2013 in the case of Marvin M. Brandt Revocable Trust
v. United States, No. 12-1173, 572 U. S. ___ (2014). No person
other than Amicus Curiae, its members, or its counsel made a
monetary contribution to its preparation or submission.

2

Robert Hale, a founding member of the Northwest Legal
Foundation, has personally or through the Foundation asserted
property rights or limited government in numerous actions,
including Hale v. State of North Dakota, 2012 ND 148, ¶ 35, 818
N.W.2d 684, 696, cert. denied 133 S.Ct. 847 (Jan. 7, 2013); Gowan
v. Ward County Commission, 2009 ND 72, 764 N.W.2d 425, cert.
denied 558 U.S. 879 (Oct. 5, 2009); City of Seattle v. McCoy, 101
Wash.App. 815, 4 P.3d 159, Wash.App. Div. 1, July 17, 2000
(amicus brief filed by Northwest Legal Foundation involving
decision of lower court to prevent property owners from using
property vacated, appellate court holding (1) drug nuisance statute
was unconstitutional taking of property as applied to owners;
(2) common-law nuisance exception did not apply to the otherwise
compensable taking; and (3) drug abatement statute violated due
process as applied); Richmond v. Thompson,130 Wash.2d 368, 922

2
property rights are fundamental rights that should be
recognized as rights of individuals that are provided
the same protections as other fundamental rights.

P.2d 1343, Wash., September 26, 1996 (“Northwest Legal
Foundation and other amici ask this court to recognize a common
law absolute privilege for citizen complaints concerning police
conduct” – issue not raised below in a timely manner so not
decided on appeal); Postema v. Snohomish County, 83 Wash.App.
574, 586-587, 922 P.2d 176, 183, Wash.App. Div. 1, September 09,
1996 (“Amicus Northwest Legal Foundation argues that RCW
36.70A.210 creates a city-county government in violation of Wash.
Const., art. 11 § 16, which provides that ‘[n]o such ‘city-county’
shall be formed except by a majority vote of the qualified electors
voting thereon in the county.’ NLF also argues that RCW
36.70A.210 is void for vagueness.”); Cobb v. Snohomish County, 64
Wash.App. 451, 829 P.2d 169, Wash.App. Div. 1 (1991); R/L
Associates, Inc. v. City of Seattle, 113 Wash.2d 402, 780 P.2d 838
(1989).
Richard Sanders served as the Northwest Legal Foundation
counsel of record in the Washington cases listed immediately
above. He was admitted to the United States Supreme Court on
January 12, 1976, No. 105718. From 1995 through 2011 Justice
Sanders served on the Washington Supreme Court as an Associate
Justice. In the case of State ex rel. Public Disclosure Comm. v. Wea,
130 P.3d 352 (Wash. 2006), Justice Sanders dissented, asserting
that the Washington Supreme Court “majority turns the First
Amendment on its head.” Id. at ¶ 65. The United States Supreme
Court agreed, adopting Justice Sanders’ analysis in Davenport v.
Washington Ed. Assn., 551 U.S. 177 (2007).

3
SUMMARY OF ARGUMENT
This Court should recognize that an individual’s
property rights are fundamental rights that must be
protected by the courts and as such this Court should
apply strict-scrutiny analysis to any government
actions involving the taking of a property right from an
individual or any limitation of the use of property by a
property owner.
In addition, any limitation or
condition imposed by the government on a person’s
property should be rejected unless, under the strictscrutiny analysis, there is a strong and compelling
basis for such limitation or condition.
ARGUMENT
I. Property Rights are a Fundamental Right
Retained by Individuals
The purpose of this amicus brief is to suggest to the
Court that now is the time to accept Justice Thomas’
view that this Court should “revisit our Public Use
Clause cases and consider returning to the original
meaning of the Public Use Clause: that the government
may take property only if it actually uses or gives the
public a legal right to use the property.” Kelo v. New
London, 545 U.S. 469, 521 (2005) (Thomas, J.,
dissenting).We also believe that now is the time to
declare, once and for all, that the ownership of private
property is a fundamental right.
In our view the case of Lavern Behm v. MontanaDakota Utilities Co. demonstrates governmental abuse
of its power as to private property rights as well as
legislative over-stepping of its legitimate authority and
the concomitant failure of the judicial branch to correct

4
this wrong. In fact, in the Behm case the North Dakota
Supreme Court has unfortunately used its authority to
further eradicate and reduce the rights of individuals
in their property.
Mr. Behm owns a quarter of land abutting a county
road. This road rests upon a 66 foot public right of
way. The right of way extends 33 feet on each side of
the county section line. Approximately 28 feet (14 feet
on each side of the section line) is improved with an
asphalt roadway. Adjacent to the improvement is a 19
foot easement way. The easement was established for
the purpose of locating utilities such as water lines,
power lines, telephone lines, gas lines and such.
Montana-Dakota Utilities Co. desires to put in a gas
pipe line to service one sole customer, Burlington
Northern Railway. However, fuel to heat the switches
for the railroad had been provided for many years with
propane tanks adjacent to the tracks which did not
impose on Mr. Behm’s property.
Instead of using the propane tanks or the
established public utility easement right of way, MDU
chose to exercise a “private” use of the governmental
power of eminent domain to condemn Mr. Behm’s land
and put its pipe line parallel (10 feet outside the right
of way) to the public utility easement right of way on
Mr. Behm’s private property.
Mr. Behm objected, arguing that there was no
necessity, no general public need, and that alternatives
and better options were available. The lower court
(state judge Gary Lee, presiding) held in Mr. Behm’s
favor. Judge Lee issued a written opinion citing the

5
applicable law and including specific findings of fact
that none of the conditions justifying the use of
eminent domain were met. In fact the district court
found specifically that there was no necessity—and
that this taking was in reality merely a private
convenience allotted to one single private entity.
The utility company appealed Judge Lee’s decision
to the North Dakota Supreme Court, which reversed
the decision of the lower court and sent it back to the
district court to determine just compensation. In its
reversal the North Dakota Supreme Court ruled that
whether or not there was a general public need or a
necessity for the taking of the easement is a
determination that is to be made exclusively by the
entity employing the power of eminent domain, that is,
in this case, the private utility company, MDU.
MDU obtained the power of eminent domain
through legislative enactment. However, the legislative
body has failed to protect individual private property
rights and instead gave the power of governmental
eminent domain to a private entity. The North Dakota
Supreme Court failed to ensure that the conditions of
the use of eminent domain be followed (such as
requiring necessity and a public use) and instead
allowed the entity using the condemnation power to
decide alone whether the taking should occur,
relinquishing any judicial review as to the taking.
This case provides an appropriate vehicle for this
Court to declare that the right of property is a
fundamental right that deserves the protection
afforded to all fundamental rights. As such, this Court
has the opportunity to require that all state and federal

6
courts—as a function of the judiciary in protecting
fundamental property rights—apply strict scrutiny in
reviewing any and all actions our governmental
institutions take when imposing laws, rules, regulation
and assessments on private property.
In Lynch v. Household Finance Corp., 405 U.S. 538,
552 (1972) (Stewart, J.), this Court observed, “[T]he
dichotomy between personal liberties and property
rights is a false one. Property does not have rights.
People have rights….That rights in property are basic
civil rights has long been recognized.” James W. Ely,
Jr., THE GUARDIAN OF EVERY OTHER RIGHT – A
CONSTITUTIONAL HISTORY OF PROPERTY RIGHTS, 2d ed.,
Oxford University Press (1998).
According to Professor Ely, United States Supreme
Court cases demonstrate a long history of protecting
property rights and engender two primary themes:
first, “the protection of private property [serves] as a
means to uphold individual liberty against
governmental overreaching,” and second, “this
commitment to liberty [is] reinforced by a second
theme, the importance of secure property rights as the
basis for economic growth.” Ibid.
An individual’s right to property is a fundamental
right and should be recognized as such. Justice Alito
has previously described “fundamental rights” as rights
and liberties that are deeply rooted in our Nation’s
history and tradition and implicit in the concept of
ordered liberty that without such right liberty or
justice would not exist:

7
But it is well established that any “substantive”
component to the Due Process Clause protects
only “those fundamental rights and liberties
which are, objectively, ‘deeply rooted in this
Nation’s history and tradition,’ ” Washington v.
Glucksberg, 521 U.S. 702, 720–721, 117 S.Ct.
2258, 138 L.Ed.2d 772 (1997); Snyder v.
Massachusetts, 291 U.S. 97, 105, 54 S.Ct. 330, 78
L.Ed. 674 (1934) (referring to fundamental
rights as those that are so “rooted in the
traditions and conscience of our people as to be
ranked as fundamental”), as well as “ ‘implicit in
the concept of ordered liberty,’ such that ‘neither
liberty nor justice would exist if they were
sacrificed.’ ” Glucksberg, supra, at 721, 117 S.Ct.
2258 (quoting *2715 Palko v. Connecticut, 302
U.S. 319, 325–326, 58 S.Ct. 149, 82 L.Ed. 288
(1937)).
U.S. v. Windsor, 570 U.S. 744, 807 (2013)(Alito, J.,
dissenting).
The rights of individual to own property, possess
property, and be safe from intrusions and limits upon
the ownership and use of property are the hallmark of
our country.
The entire purpose of a fundamental right, and the
recognition of a fundamental right, is to protect citizens
from government overreach. Such protections will not
exist unless this Court adopts viable legal standards
that would allow for the protection of property rights.

8
II. Any Limitation or Condition by the
Government on a Person’s Property Rights
Should Engender Strict Scrutiny Analysis
The federal government was explicitly created as
one of limited powers. Indeed, the Framers of the
Constitution took the time to list specific enumerated
powers in Article I, Section 8. Moreover, ratification of
the new Constitution was initially thwarted by the
arguments of the Anti-Federalists, that is until there
was a consensus that upon ratification a Bill of Rights
would be proposed by the First Congress as a limit on
the federal government’s powers. Twelve amendments
were proposed by Congress in 1791, ten of which were
ratified and became our Bill of Rights.
This constitutional history clearly indicates that the
Framers and the states that ratified the Constitution
intended that the federal government would be a
limited federal government, not only by the powers
explicitly conferred on that new government, but also
by the additional limiting factor imposed upon the
federal government by the adoption of the Bill of
Rights. And of course, any acts of Congress—and any
principles employed to interpret the powers of Congress
or the Constitution—should include, as a starting
point, the reality that the powers of the federal
government are limited and should be construed
accordingly. We further assert that the same principles
should apply to state statutes and state governments.
This limiting concept should apply through the
application of the Due Process Clause or the Equal
Protection Clause applicable to all government entities
through the Fifth and Fourteenth Amendments to the

9
Constitution. Unfortunately, many courts have failed
to apply this basic concept of limited government and
have instead countenanced numerous government
actions and takings of private property through the
application of the “rational-basis test.” The rational
basis test is in actuality inherently irrational in that it
relegates complete discretion to the governmental
entities. Such unfettered deference to government
actions negates not only the limited role of government;
it also at the same time negates the inherent rights of
individuals by failing to properly protect property
rights. Simply put, the rational-basis test protects the
government when it takes private property, instead of
its citizens.
We must return to those principles which were the
foundation of our form of government. The American
experience was founded upon the concept of individual
liberty. Such liberty necessitated that individuals—
not governments, kings, emperors and despots—are
endowed with “certain inalienable rights.”3
The concept of the supremacy of individual rights
had been previously percolating for at least a hundred
years in the writings of English and French thinkers.
It is not without significance that these inalienable
rights were articulated in the opening paragraph of the
Declaration of Independence as rights which derived
from “Nature and Nature’s God.” Within these words is
3

Thus, the colonies of England in North America birthed the
concept and, for the first time, fermented a genuinely new
foundation of individual liberty and anointed individuals as those
who harbored and were entitled to these “certain inalienable
rights.”

10
the powerful idea that the Laws of Nature and Nature’s
God, not man, formed the underpinning of our
Declaration of Independence and our ensuing
Constitution.
The second paragraph of the Declaration of
Independence articulated the self-evident truths that
have built the most free, most productive, highest
standard of living and most expansive opportunities for
the greatest number of human beings in the history of
the world. The Declaration of Independence begins by
acknowledging that “all men are created equal, that
they are endowed by their Creator with certain
unalienable Rights, that among these are Life, Liberty,
and the pursuit of Happiness.”4
From this intellectual seed flowed a Constitution
that has been the envy of and an example to the World.
But unfortunately there have been significant
efforts over the last 80 years to disenfranchise
individuals from the inalienable rights on which the
foundation of our liberty is based.
The subject case illustrates how our legislative
bodies and judicial system have failed to recognize and
protect our individual liberty—especially when it comes
to protecting our private property rights.

4

As clearly articulated in the main brief submitted by Mr. Behm
for the acceptance of certiorari in this case, the concept of property
rights should be considered to be sacred and worthy of the same
level of protections as personal rights. Indeed, as shown in the
main brief submitted by Mr. Behm, property rights, when properly
understood, are themselves personal rights.

11
We pray that this Court seize the opportunity this
case offers.
For far too long our governmental institutions, at all
levels, have either ignored or arrogantly case by case
rendered property rights to little more than
nothingness. In so doing government has failed in its
prime responsibilities as articulated in the Declaration
of Independence—that is to secure these rights.
We recognize that the Declaration of Independence
is not the law of the land. However, it clarifies the
purpose of the laws of our land and the limits of those
laws. But the Constitution—that uses the words of this
seminal document—is the law of the land, and within
the Bill of Rights the people of the United
States—through ratification of the Fifth
Amendment—adopted and gave legal sustenance to the
inherent right to life, liberty, and property.
Our Founding Fathers’ beliefs were boldly
announced by these originating documents that set
forth the proper role of government as well as
articulated the just response of the people if and when
that role is not fulfilled. Our form of government was
devised as an effort to limit governments’ powers and
to avoid allowing those powers to become destructive to
our individual rights.
This Court has the opportunity to at least begin to
correct the long smoldering abuse by our governing
bodies of private property owners and their rights.
What Mr. Behm has suffered is intolerable. What
is even more intolerable is the gross abuse of the power
of the Supreme Court of the State of North Dakota by

12
failing to protect private property rights and allowing
a taking in a situation where it is not necessary and
does not involve a public use.
Unless a person can be secure in his or her property,
all other personal rights are subject to the same risk of
eradication by unfettered government.
According to Justice Thomas, “a string of our cases
construing the Public Use Clause to be a virtual
nullity, without the slightest nod to its original
meaning. In my view, the Public Use Clause, originally
understood, is a meaningful limit on the government’s
eminent domain power. Our cases have strayed from
the Clause’s original meaning, and I would reconsider
them.” Kelo v. New London, 545 U.S. 469, 506 (2005)
(Thomas, J., dissenting). Today private property
owners retain virtually no property rights. Property
owners can do almost nothing with their property
without first seeking and receiving government
permission.
These permissions are themselves abusive and in
virtually all cases excessive. Any “protections” from the
use (and misuse) of these police powers is in name only,
as clearly demonstrated by the final result of this
Court’s countenance of the taking in Kelo: An empty,
weed-strewn lot given over for the sake of “economic
development.” The law of property has been turned on
its head: Instead of the government having to justify
the limits and conditions imposed on the use of
property, it is the property owner who must—hat in
hand—obtain permission to use his or her private
property and in the process be forced to accept

13
whatever conditions and limits the governmental entity
demands.5
The Supreme Court of the United States is the last
hope of Mr. Behm. Possibly it is the only hope we the
people have of preventing the abuses of our
fundamental rights in our real property—before they
are irretrievably consumed, digested and ejected from
the bowels of government.
Lavern Behm v. Montana-Dakota Utilities Co.
provides an opportunity for this Court to begin the
necessary rehabilitation of a free peoples’ rights in
their property.
This Court can, if it chooses,
reestablish private property rights as the fundamental
rights held by free people. As stated by Justice Thomas,
“It is the last of these liberties, the Takings Clause,
that is at issue in this case. In my view, it is
‘imperative that the Court maintain absolute fidelity to’
the Clause’s express limit on the power of the
government over the individual, no less than with
every other liberty expressly enumerated in the Fifth
Amendment or the Bill of Rights more generally.” Kelo

5

In our view, zoning restrictions, regulations, and revenue-raising
schemes advanced and implemented by state or federal
governments that restrict and condition private property rights
improperly take away and violate the rights of property owners.
Private property owners can protect themselves by the proper
application of common law remedies such as nuisance, tort, and
contract law. The government should cease and desist in managing
and regulating private property and leave that to the private
property owners themselves. Surrounding land owners and the
public at large are sufficiently protected by application of the
tenents contained within the domain of these laws.

14
v. New London, 545 U.S. 469, 507 (2005) (Thomas, J.,
dissenting).
We hope this Court believes private property rights
are fundamental rights. As such we urge the Court to
make it clear that any and all governmental actions
limiting or conditioning the use of an individual’s
property must be viewed through the legal lens of strict
scrutiny.
Any and all steps our governmental institutions
take in imposing laws, rules, regulations and
assessments on private property must be strictly
reviewed as to whether the taking is actually necessary
and for a public use—in our view under the strict
scrutiny standard. As stated by Justice Thomas, “[t]he
public purpose interpretation of the Public Use Clause
also unnecessarily duplicates a similar inquiry
required by the Necessary and Proper Clause. The
Takings Clause is a prohibition, not a grant of power:
The Constitution does not expressly grant the Federal
Government the power to take property for any public
purpose whatsoever. Instead, the Government may
take property only when necessary and proper to the
exercise of an expressly enumerated power.” Kelo v.
New London, 545 U.S. 469, 511 (2005) (Thomas, J.,
dissenting).
Due process and equal protection must be part and
parcel of all actions taken by governmental bodies
where private property rights are at issue. The right of
private property without the protection of due process
is no longer a right and instead becomes an empty
shiboleth without consequence.

15
This Court should recognize that an individual’s
property rights are fundamental rights that must be
protected by the courts and as such this Court should
rule that all courts and governmental entities must
apply strict-scrutiny analysis to any government
actions involving the taking of a property right from an
individual or any limitation or condition on the use of
property by a property owner. In addition, any
encumbrance or limit on a person’s property should be
rejected unless upon application of strict-scrutiny
analysis there is a strong and compelling basis for such
governmental-imposed limits on the individual’s use of
his or her property.
CONCLUSION
For the reasons stated above, we respectfully
request that this Court accept certiorari in this case.
Dated this 1st day of October, 2019.
Richard B. Sanders
Counsel of Record
Goodstein Law Group, PLLC
501 South “G” Street
Tacoma, WA 98405
(253) 779-4000
rsanders@goodsteinlaw.com
Counsel for Amicus Curiae

